   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2007 AND FY 2006
 Saint Lawrence Seaway Development Corporation

          Report Number: QC-2008-007
         Date Issued: November 9, 2007
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                   Date:    November 9, 2007
           Audited Financial Statements for
           FY 2007 and FY 2006, Saint Lawrence Seaway
           Development Corporation
           QC-2008-007

  From:    Rebecca C. Leng                                        Reply to
           Assistant Inspector General for Financial              Attn of:   JA-20
            and Information Technology Audits

    To:    Saint Lawrence Seaway Development
           Corporation Administrator

           The audit of the Saint Lawrence Seaway Development Corporation’s Financial
           Statements as of and for the years ended September 30, 2007, and September 30,
           2006, was completed by Dembo, Jones, Healy, Pennington & Marshall, P.C., of
           Rockville, Maryland (see Attachment). We performed a quality control review of
           the audit work to ensure that it complied with applicable standards. These
           standards include the Chief Financial Officers Act; Government Corporation
           Control Act; Generally Accepted Government Auditing Standards; and Office of
           Management and Budget Bulletin 07-04, “Audit Requirements for Federal
           Financial Statements.”

           Dembo, Jones, Healy, Pennington & Marshall, P.C., concluded that the financial
           statements presented fairly, in all material respects, the financial position of the
           Saint Lawrence Seaway Development Corporation as of September 30, 2007, and
           September 30, 2006, and the results of its operations and cash flows for the years
           then ended in conformity with accounting principles generally accepted in the
           United States. The report did not include any internal control weaknesses or
           material noncompliance with accounting principles, laws, or regulations.

           In our opinion, the audit work complied with applicable standards. Therefore, we
           are not making any recommendations, and a response to this report is not required.
           We appreciate the cooperation and assistance of representatives of the Saint
           Lawrence Seaway Development Corporation and Dembo, Jones, Healy,
           Pennington & Marshall, P.C. If we can answer any questions or be of any further
           assistance, please call me at (202) 366-1496 or Earl Hedges, Program Director, at
           (410) 962-1729.
Attachment
             #
